No.
ROBERT M. SELLERS,
Petitioner,
v.
DENIS R. MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Petition for a Writ of Certiorari was
hand-delivered by courier to the U.S. Supreme Court
on February 12, 2021. Additionally, a copy of the Petition for a Writ of Certiorari was sent to counsel by
overnight FedEx, as well as by transmitting a digital
copy via electronic mail.
Elizabeth Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
Direct: 202-514-2217
E-mail: SupremeCtBriefs@USDOJ.gov
/s/ Melanie L. Bostwick
Counsel of Record

